<html>
<title> - NATIONAL SECURITY, INTERAGENCY COLLABORATION, AND LESSONS FROM SOUTHCOM AND AFRICOM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]








NATIONAL SECURITY, INTERAGENCY COLLABORATION, AND LESSONS FROM SOUTHCOM 
                              AND AFRICOM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2010

                               __________

                           Serial No. 111-124

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
 64-927 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
MIKE QUIGLEY, Illinois               BLAINE LUETKEMEYER, Missouri
JUDY CHU, California
                     Andrew Wright, Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 28, 2010....................................     1
Statement of:
    Pendleton, John, Director, Defense Capabilities and 
      Management Team, U.S. Government Accountability Office; 
      James Schear, Deputy Assistant Secretary of Defense for 
      Partnership Strategic and Stability Operations, U.S. 
      Department of Defense; Thomas Countryman, Principal Deputy 
      Assistant Secretary of State for Political-Military 
      Affairs, U.S. Department of State; and Susan Reichle, 
      Senior Deputy Assistant Administrator for Democracy, 
      Conflict, and Humanitarian Assistance, U.S. Agency for 
      International Development..................................     8
        Countryman, Thomas.......................................    46
        Pendleton, John..........................................     8
        Reichle, Susan...........................................    55
        Schear, James............................................    35
Letters, statements, etc., submitted for the record by:
    Countryman, Thomas, Principal Deputy Assistant Secretary of 
      State for Political-Military Affairs, U.S. Department of 
      State, prepared statement of...............................    48
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................    90
    Pendleton, John, Director, Defense Capabilities and 
      Management Team, U.S. Government Accountability Office, 
      prepared statement of......................................    10
    Reichle, Susan, Senior Deputy Assistant Administrator for 
      Democracy, Conflict, and Humanitarian Assistance, U.S. 
      Agency for International Development, prepared statement of    58
    Schear, James, Deputy Assistant Secretary of Defense for 
      Partnership Strategic and Stability Operations, U.S. 
      Department of Defense, prepared statement of...............    37
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Followup questions and responses........................ 78, 84
        Prepared statement of....................................     4

 
NATIONAL SECURITY, INTERAGENCY COLLABORATION, AND LESSONS FROM SOUTHCOM 
                              AND AFRICOM

                              ----------                              


                        WEDNESDAY, JULY 28, 2010

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2247, Rayburn House Office Building, the Honorable John F. 
Tierney (chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Welch, Quigley, and Chu.
    Staff present: Andy Wright, staff director; Talia Dubovi, 
counsel; Boris Maguire, clerk; Thomas Alexander, minority 
counsel; Justin LoFranco, minority clerk; Shang Yi, minority 
intern.
    Mr. Tierney. I want to thank all of our witnesses for being 
here today, and everyone else, as well. Mr. Flake is going to 
be here in a little bit. Point of order on that, but he has 
asked us to go ahead and proceed in his absence. Ordinarily we 
would not, except that he has expressed that clearly, rather 
than hold all of you up, and because we don't know quite what 
the voting schedule is going to be. I suspect we may find 
ourselves being interrupted at some point, again with our 
regrets on that.
    The Subcommittee on National Security and Foreign Affairs' 
hearing entitled National Security: Interagency Collaboration 
and Lessons from SOUTHCOM and AFRICOM is now in order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Mr. Flake may certainly make his when he does get 
here, if he wishes.
    Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for five business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record.
    Again, without objection that is so ordered.
    I want to again thank everybody for being here. This is a 
continuation of the oversight of the agencies that are charged 
with protecting national security interests and their ability 
to communicate and collaborate with each other.
    In 1945, following the end of World War II, President 
Truman sent a message to Congress recommending the 
establishment of a Department of Defense to combine and 
coordinate the different military branches in order to better 
face the challenges of the future. He wrote, ``If there is ever 
going to be another global conflict, our combat forces must 
work together in one team as they have never been required to 
work together in the past.'' He urged Congress to, ``Take stock 
to discard obsolete organizational forms and to provide for the 
future the soundest, the most effective, and the most 
economical kind of structure for our armed forces in which this 
most powerful Nation is capable.'' Congress agreed, and in 1947 
the President signed the National Security Act.
    Similar words could be spoken today. The threats and 
challenges currently facing our country are increasingly 
complex. Terrorism, drug violence, piracy, human trafficking, 
and the potential for nuclear proliferation, just to name a 
few, cut across the traditional lines between diplomacy, 
development, and defense.
    As the problems become more multi-faceted, so, too, must 
our solutions. Terrorist and criminal organizations grow and 
flourish in weak and unstable countries, and effectively 
countering these organizations requires more than military 
might. Justice sector reform, police training, anti-corruption 
efforts, public health campaigns, and economic development 
programs are all necessary to routing out and neutralizing 
those who would do us harm.
    The whole-of-government approach requires the skills and 
expertise of the full range of Federal agencies. Over the last 
two Congresses, this subcommittee has held numerous hearings 
that demonstrate how interconnected our government must be to 
effectively promote and safeguard U.S. security interests.
    In hearings covering topics ranging from transnational drug 
enterprises to U.S. efforts in Afghanistan and Pakistan to 
emerging technologies such as unmanned aerial vehicles, we have 
heard from witnesses representing the Departments of State, 
Defense, Treasury, Commerce, and Justice, as well as the U.S. 
Agency for International Development. Not one of these hearings 
would have presented a complete oversight picture without 
witnesses from multiple agencies.
    Today we turn our attention to the Department of Defense's 
regional combatant commands. Specifically, we will hear about 
the results of two Government Accountability Office studies, 
one on the U.S. Southern Command [SOUTHCOM], and the other on 
U.S. Africa Command [AFRICOM].
    In 2008 the Department of Defense directed these two 
commands to include interagency partners in their theater 
campaign and contingency plans, and both commands have worked 
to include interagency personnel within the commands, 
themselves. These experiences should prove instructive to 
continued interagency efforts within the Federal Government.
    There are two different levels at which we must examine 
this issue. The first is mechanical. Are the correct systems 
and processes in place to facilitate interagency collaboration? 
We must ask how the State Department's bilateral structure can 
effectively coordinate with the Defense Department and USAID's 
regional setups. We need to examine whether technological 
systems at different agencies can communicate with each other 
and whether each agency is making its best effort to share 
information. We should evaluate whether personnel of these 
agencies understand the cultures and functions of the agencies 
and whether the right incentives exist to encourage 
collaboration. These basic issues have profound on-the-ground 
effects that, if not fully addressed, significantly undermine 
the United States' missions abroad.
    But we must also ask broader policy questions. As threats 
have changed, the concept of national security has broadened. 
As a result, the Department of Defense has taken on an 
expanding role in areas that have traditionally been allocated 
to the State Department and USAID, as well as others. We must 
work to find the right balance between the agencies and make 
sure that funding streams and personnel numbers reflect that 
balance. Failure to strike the right balance has consequences.
    For example, AFRICOM's 2008 roll-out sent the message the 
that military would take the lead on all U.S. activities in 
Africa, which upset governments throughout the continent. We 
must ensure that the right agency takes the lead on each 
effort, that diplomacy is led by diplomats, that development 
projects are designed and implemented by development experts, 
and that military operations are planned and coordinated by the 
military.
    Over 60 years ago, President Truman foresaw the challenges 
that confront us today. He argued that, ``We should adopt the 
organizational structure best suited to fostering coordination 
between the military and the remainder of the government.'' I 
believe it is time that we follow his advice.
    [The prepared statement of Hon. John F. Tierney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Now, before we move on to our witnesses, I 
want to note for the record that the process for receiving 
written statements for this hearing was, to be frank, 
unacceptable. Two of the agencies here today submitted 
testimony only after hours yesterday. The other submitted 
testimony to us less than 4 hours ago. And we still haven't 
received testimony from the fourth agency.
    We know that preparing testimonies is a burden on the 
agencies. I understand that coordinating with the Office of 
Management and Budget is challenging. But we don't call these 
hearings lightly, and we call them because there are important 
issues to be discussed. Members need time to review those 
statements in advance to prepare for the hearings, and our 
staff does, as well.
    We can't have situations, as we did last night, where the 
subcommittee staff had to wait around for testimony that never 
came. It is a matter of congressional prerogatives, and also a 
basic question of courtesy to our staff. So if the problem is 
with OMB, I would appreciate that discretely after the meeting 
somebody come up and tell me that with respect to your agency 
OMB was the problem and we will take care of it there. If the 
problem rests with you or your agency, I expect that you will 
correct that and that we won't have a repeat of this situation 
in the future. Thank you.
    Now we are going to receive testimony from the witnesses. 
What I will do is introduce all of you at the outset, as some 
of you are familiar with it, and then we will proceed to go 
from my left to right in statements.
    Mr. John Pendleton is the Director of Force Structure and 
Defense Planning Issues in the Government Accountability 
Office, Defense Capabilities and Management Team. His current 
portfolio includes ballistic missile defense, nuclear 
requirements, global military posture, interagency 
collaboration, stability operations, as well as reviews of Army 
and Navy conventional force structure plans. In one of his 
recent projects for this subcommittee, he oversaw a review of 
the efforts to establish the Africa Command. Mr. Pendleton also 
serves as GAO's strategic planner for defense issues. He holds 
a business degree from the University of Kentucky. He has 
attended national security courses at Syracuse, National 
Defense University, Naval Post-Graduate School, and Army 
Command and General Staff College.
    Dr. James Schear is the Deputy Assistant Secretary of 
Defense for Partnership Strategy and Stability Operations at 
the Department of Defense, where he advises the Department's 
leadership on matters pertaining to stabilization and 
reconstruction operations, foreign disaster relief, 
humanitarian assistance, international peacekeeping efforts, 
and noncombatant evacuations.
    Prior to assuming his current duties, Dr. Schear served as 
the Director of Research at the National Defense University's 
Institute for National Strategic Studies, and as the Deputy 
Assistant Secretary of Defense for Peacekeeping and 
Humanitarian Affairs. He assisted the United Nations with 
planning for the implementation of the Gulf War cease-fire 
resolutions, and served as an advisor to the leadership of U.N. 
missions in Cambodia and former Yugoslavia. For his efforts 
during the Kosovo Crisis, Dr. Schear received the Secretary of 
Defense Medal for Outstanding Public Service. During 2007 he 
also served as a principal member of the Afghanistan Study 
Group.
    He holds a B.A. from American University, an M.A. from 
Johns Hopkins University, and a Ph.D. from the London School of 
Economics and Political Science.
    Mr. Thomas Countryman is the Principal Deputy Assistant 
Secretary of State for Political-Military Affairs. He is a 
career member of the Senior Foreign Policy Service and began 
his career as a consular and political officer in Belgrade. He 
later served as the political military officer at the American 
Embassy in Cairo during the first Gulf War and as a liaison 
with the U.N. Special Commission investigating Iraq's weapons 
program.
    Afterward, he served as Director of the State Department's 
Office of South-Central European Affairs and the Minister-
Counselor for Political Affairs at the American Embassy in 
Rome. He has also served as Deputy Chief of Mission at the U.S. 
Embassy in Athens, Greece, and as the Foreign Policy Advisor to 
General James Conway, the Commandant of the U.S. Marine Corps.
    Mr. Countryman received the Presidential Meritorious 
Service Citation in 2007 and the Superior Honor Award for each 
of his assignments in Rome and Athens. He graduated from 
Washington University in St. Louis and studied at the Kennedy 
School of Government at Harvard University.
    Ms. Susan Reichle is the Senior Deputy Assistant 
Administrator for Democracy, Conflict, and Humanitarian 
Assistance at the U.S. Agency for International Development. 
Ms. Reichle is a career Senior Foreign Service Officer who has 
served in Haiti, Nicaragua, and Russia as a Democracy Officer 
specializing in conflict and transition issues.
    She recently served as the Mission Director at the U.S. 
Embassy in Colombia, where she was part of one of the largest 
country teams in the world. For her service, Ms. Reichle 
received several awards from the Colombian Government, 
recognizing USAID's contribution under her leadership.
    She holds an M.A. from the National War College at the 
National Defense University, two additional Master's degrees 
from the University of Pennsylvania, and she received her B.A. 
from James Madison University.
    Again, thank all of you for being witnesses here today and 
for sharing your substantial expertise.
    In addition to the witnesses on the panel before us, the 
subcommittee has invited a written statement for the record 
from Ms. Mariko Silver, the Acting Assistant Secretary for 
International Affairs at the Department of Homeland Security. 
She is unable to attend today's hearing, but we are grateful 
for her written testimony, which will be put into the hearing 
record by unanimous consent.
    It is the policy of the subcommittee to have all of the 
witnesses testifying before it to be sworn in, so I ask you to 
please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. All of the panelists have answered in the 
affirmative.
    Your written statements in full will be put on the record, 
so I ask if you can to try to keep your opening remarks to 
about 5 minutes. You are all familiar with the light system 
here. It is green when it is a go, it is yellow when you get 
about a minute to go, and gets red when the floor opens and you 
all drop through. [Laughter.]
    We appreciate your testimony today.
    Mr. Pendleton, if you would, please.

 STATEMENTS OF JOHN PENDLETON, DIRECTOR, DEFENSE CAPABILITIES 
  AND MANAGEMENT TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
    JAMES SCHEAR, DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR 
PARTNERSHIP STRATEGIC AND STABILITY OPERATIONS, U.S. DEPARTMENT 
   OF DEFENSE; THOMAS COUNTRYMAN, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY OF STATE FOR POLITICAL-MILITARY AFFAIRS, U.S. 
DEPARTMENT OF STATE; AND SUSAN REICHLE, SENIOR DEPUTY ASSISTANT 
    ADMINISTRATOR FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

                  STATEMENT OF JOHN PENDLETON

    Mr. Pendleton. Mr. Chairman, thank you for inviting me to 
testify about emerging lessons from our work at AFRICOM and 
SOUTHCOM. I will briefly summarize the reports we issue today 
in the context of interagency collaboration, as well as provide 
some preliminary information from our ongoing work on counter-
piracy efforts, work you also requested.
    While both AFRICOM and SOUTHCOM have to be prepared for 
traditional military operations, these are not their focus. 
Day-to-day, both conduct a variety of activities, from fighting 
drugs to civil affairs projects like building schools and 
drilling water wells. They also have to be prepared to respond 
to disasters like the recent devastating earthquake in Haiti. 
Because such activities are not strictly military operations, 
they must work closely with other organizations like State and 
AID.
    You will recall that the last time I testified before you I 
discussed some of the issues DOD faced in creating AFRICOM, 
including concerns inside the U.S. Government that getting DOD 
more involved in Africa would blur the lines between defense, 
diplomacy, and development. You asked us to look beyond the 
macro perceptions and fears to focus on the actual activities 
being conducted and the challenges being encountered on the 
ground.
    In sum, we found a command that is maturing, one that has 
made progress but still has issues to overcome in leveraging 
relationships with other organizations. For instance, some 
AFRICOM activities could have unintended consequences or waste 
scarce resources, such as a planned musical caravan in Senegal. 
AFRICOM's task force in Djibouti built a school that was later 
found dilapidated, among other cultural missteps.
    But AFRICOM has also had notable success stories, as 
described in our report. My team observed a large pandemic 
response exercise in Uganda that was actually headed up by an 
AID official who was assigned to AFRICOM headquarters. This and 
other activities like the Africa Partnership Station that 
promotes maritime security through activities coordinated with 
State, AID, and DHS are examples of positive interagency 
collaboration.
    Our ongoing work on counter-piracy efforts in the Horn of 
Africa region also underscores the importance of interagency 
collaboration. Consensus exists that the piracy problem 
emanates from the ungoverned spaces of Somalia, which is in 
AFRICOM's area of responsibility.
    But it is far from clear how the U.S. Government plans to 
address that. Prevention and interdiction efforts have shifted 
pirate attacks, but the problem is becoming more diffuse as the 
attacks are happening farther and farther from shore.
    The National Security Council developed an action plan in 
2008 to provide an over-arching strategy for countering piracy; 
however, the plan doesn't assign specific responsibilities, so 
it is unclear who is in charge of things like strategic 
communications, cutting off pirate revenue, and making sure 
captured pirates get prosecuted. Our full report on counter-
piracy efforts will be published later this year, and it will 
detail these and other findings.
    While AFRICOM is a relatively new command, SOUTHCOM has 
been in the interagency business for a long time and is widely 
regarded as good at it. The collaboration necessary to fight 
drug trafficking has given SOUTHCOM more than 20 years of 
experience in working with diplomatic, development, and law 
enforcement agencies. During our review, we heard many positive 
comments about how well the command involves other agencies in 
its planning and works with them during operations.
    In 2008, SOUTHCOM developed a non-traditional 
organizational structure with non-DOD civilians in prominent 
roles. Other commands, including AFRICOM, have followed suit. 
However, after the earthquake struck Haiti earlier this year, 
SOUTHCOM struggled to make its structure work for the large-
scale operation that followed. SOUTHCOM's headquarters 
structure lacked depth in its logistics staff, among other 
issues. The headquarters needed to quickly add hundreds of 
personnel, and the unusual structure complicated matters.
    As a result, SOUTHCOM went back to a traditional military 
structure virtually overnight and has kept this structure 
since, while it studies how to balance day-to-day operations 
with the potential for a large-scale contingency.
    In our reports issued today we have made multiple 
recommendations to address the challenges I have described at 
both AFRICOM and SOUTHCOM. Encouragingly, Mr. Chairman, DOD 
agreed with our findings and recommendations and plans to take 
steps to address it.
    Thank you. That concludes my remarks. I look forward to 
taking any questions you may have.
    [The prepared statement of Mr. Pendleton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Tierney. Thank you, Mr. Pendleton.
    Dr. Schear.

                   STATEMENT OF JAMES SCHEAR

    Dr. Schear. Chairman Tierney, members of the committee, I 
am very grateful for this opportunity to join colleagues from 
the Department of State and the U.S. Agency for International 
Development in offering our perspectives on interagency 
collaboration within the U.S. combatant commands.
    I would also like to take this occasion to commend the 
Government Accountability Office for its two very cogent, well-
argued reports that serve as the focus of today's hearings.
    To briefly summarize my prepared remarks, Mr. Chairman, I 
think everyone here would agree that interagency collaboration 
is hugely important, in particular for my department, the 
Department of Defense. My boss, Secretary Gates, has observed 
that the lines separating war, peace, diplomacy, and 
development have become more blurred, sir, I believe you 
underscored that same theme, and no longer fit the neat 
organizational charts of the 20th Century.
    All the various stakeholders working in the international 
arena, military and civilian, government and private, have to 
learn to stretch outside their comfort zones to work together 
and achieve results.
    I think Secretary Gates' point underscores an absolute 
reality, which is we have enormous incentives to collaborate, 
but we also face management challenges that remain very 
complex, both in terms of marshaling the necessary human and 
budgetary resources and aligning our capacities, our differing 
capacities, in a complementary way.
    Given these challenges, I would like to offer a few 
guidelines that I think could be part of a more comprehensive 
road map to building a better future in this important area.
    First of all, interagency coordination at the Combatant 
Command, COCOM, level needs to be tailored to the distinctive 
needs of the region. There is no ``one size fits all formula'' 
for scripting the whole-of-government coordination effort. 
Different missions, ranging from disaster relief and 
humanitarian assistance and foreign consequence management, all 
the way to counter-terrorism and security force assistance, 
require different mixes of interagency participation and 
different roles and missions, different leading and supporting 
elements need to be included in that mix.
    Second, planning can be a vital instrument for forging 
greater interagency coordination. Our regional commands develop 
campaign and contingency plans pursuant to DOD guidance, and 
they place strong emphasis on incorporating interagency 
perspectives. We on the DOD side through the commands also 
benefit from greater access and influence over the development 
of USAID regional development plans and the State Department's 
country level mission strategic and resource plans. The 
planning instruments are very useful. They need to be worked in 
tandem.
    Third guideline: effective interagency coordination is 
human capital intensive. The integration of non-DOD 
perspectives at the combatant command level through embedded or 
liaison personnel can both inform and influence the 
perspectives of our own service personnel at all levels, 
especially when it comes to understanding the socio-cultural 
landscape of the countries. But again, the job of aligning the 
supply of and demand for such talent is not to be taken 
lightly. It is a very difficult challenge.
    Guideline No. 4: interagency coordination should always be 
supportive and harmonize with longstanding civil and military 
authorities. As Vice Admiral Robert Moeller, a former AFRICOM 
deputy, just recently emphasized, AFRICOM is a test platform 
for helping the military as an institution to better understand 
its role in supporting diplomacy and development.
    Fifth, there is the issue of unintended consequences, and 
we must be careful to avoid those. I concur with my colleague 
from GAO on that point. Interagency coordination at the command 
level is not a substitute for coordination at the Washington or 
country team levels, but rather a complement to the overall 
process.
    Finally, the sixth guideline: we should not discourage 
innovative approaches to engagement. We have a strong stake in 
encouraging our commands to experiment with new organizational 
models that better integrate efforts with our civilian 
partners, even though we may be accepting a certain amount of 
friction as the commands learn how to do this better.
    Those are the six points I would like to emphasize. I am 
certainly prepared to give specific reactions on the analysis 
of SOUTHCOM and Operation Unified Response, as well as AFRICOM 
and its diverse challenges, but I see, sir, I am running out of 
time so I will curtail my remarks.
    Thank you very much.
    [The prepared statement of Dr. Schear follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much.
    Mr. Countryman.

                 STATEMENT OF THOMAS COUNTRYMAN

    Mr. Countryman. Thank you, Mr. Chairman and members of the 
committee, for inviting the Bureau of Political-Military 
Affairs to share State's perspectives on AFRICOM and SOUTHCOM. 
We are very happy to be with these two colleagues, who are 
constant partners of Assistant Secretary Shapiro and the rest 
of our team in working on security assistance, policy, and 
reform.
    In my 20 years of working with DOD in various capacities, I 
must say I have never seen a better level of communication and 
cooperation between Defense and State than I see today. This is 
not just led from the top by Secretaries Clinton and Gates, but 
it extends through all levels of both organizations and has 
been nurtured by our common experience on the ground in Iraq 
and Afghanistan.
    As the State Department lead on strategic policy issues 
with DOD, my Bureau has been intimately involved in the standup 
of AFRICOM and the transformation of SOUTHCOM into an 
interagency oriented organization. We co-chaired working groups 
with the Africa and Western Hemisphere Bureaus to help guide 
OSD on the impact of these changes to our institutional 
relationships, as well as to our regional policies.
    State still needs to work out some complex issues with DOD 
concerning AFRICOM's mission and activities, but the combatant 
command is still young and is rapidly gaining experience and 
strength.
    After General Ward took command, AFRICOM welcomed our input 
and developed a mission statement that aligns its military 
operations in unambiguous support of U.S. foreign policy.
    One of our active Ambassadors serves as the deputy to the 
commander for civil-military activities, an unprecedented role 
that ensures high-level participation in AFRICOM's plans and 
partnering activities. And we have placed an additional, by the 
end of this year, 11 Foreign Service Officers to serve as 
POLADs, foreign policy advisors, or in the directorates of the 
commands.
    We already see great success at the operational level. 
Within State, I lead the diplomatic efforts to combat piracy 
off the coast of Somalia, which AFRICOM has strongly supported. 
We worked together with AFRICOM on the African Partnership 
Station, and also their African maritime law enforcement 
partnership, which are developing our partner's maritime and 
legal enforcement capabilities.
    While AFRICOM was forming, SOUTHCOM was reforming. 
Arguably, SOUTHCOM's interagency focus has been more forward 
leaning than the typical geographic command as they look to 
support State- and AID-led activities in rule of law, counter-
narcotics, disaster relief, and humanitarian assistance. 
SOUTHCOM also turned the State POLAD into a civilian deputy to 
the commander, giving him responsibility over strategic 
planning, security cooperation, public affairs, strategic 
communications, and outreach to NGO's and business.
    Again, we have 11 Foreign Service Officers by this fall 
assigned to SOUTHCOM. Their interagency outreach and 
cooperation was critical to SOUTHCOM's ability to respond to 
Haiti's devastating earthquake.
    We continue to work with all the combatant commands, to 
align their vast resources and capabilities behind policies and 
activities led by the State Department and other civilian 
agencies, including rule of law development, military 
assistance, and others. In the vast majority of cases it is not 
a problem, but, of course, as you see in the GAO study, there 
are times when foreign and defense policies and approaches do 
not rapidly and cleanly mesh. This doesn't alarm me; I am 
rather used to it. I might be more worried if our cultures were 
so identical that we agreed on everything instantly.
    What we try to insure is that misinformation is not the 
cause of any misalignment in our policy approaches. We are 
doing all we can to encourage full and free exchange of 
information between the Department and combatant commands at 
all levels.
    A key aspect is exchange tours, providing opportunities for 
State and DOD officers to fill positions in the other 
organizations. We have expanded the POLAD program from 20 
officers 5 years ago to more than 80 today, and we look forward 
to signing a new MOU with the Defense Department that will set 
a new goal of exchanging 110 officers in each direction each 
year.
    As Dr. Schear said, this is not a substitute, but it is a 
facilitator of interagency cooperation.
    I will stop here, Mr. Chairman, and again thank you for the 
opportunity.
    [The prepared statement of Mr. Countryman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much.
    Ms. Reichle.

                   STATEMENT OF SUSAN REICHLE

    Ms. Reichle. Chairman Tierney, distinguished members of 
this committee, I appreciate the opportunity to be here this 
afternoon for this hearing with members who I collaborate on a 
daily basis with in the Department of State and Department of 
Defense, and also to really commend the work that the GAO has 
done. It is really outstanding to see the amount of work that 
went into a very intense review.
    The purpose of my remarks is two-fold: first, to explain 
why we in the development community believe that an integrated 
U.S. Government approach to crisis prevention, humanitarian 
response, and instability is critical; and, second, to outline 
the steps that we have taken in the U.S. Agency for 
International Development to make such collaboration possible.
    Within the three D's national security construct of 
diplomacy, development, and defense, USAID's collaboration with 
the Departments of State and Defense is essential to promoting 
and protecting national security. While the civ-mil 
relationship actually stretches back to the 1960's, it took on 
new urgency following major disasters.
    USAID posted its first Office of Foreign Disaster 
Assistance Advisor to PACOM back in 1994 at the request of the 
PACOM commander because of a cyclone that struck Bangladesh and 
the response. An OFDA advisor in a similar situation was 
assigned to SOUTHCOM following Hurricane Mitch, the response in 
1998. And by 2008, USAID OFDA had advisors in each of the 
combatant commands, and I think that really represents, 
obviously, the ramp-up and the importance that we saw in 
coordinating with the combatant commands.
    Soon after September 11th, the Agency also made a decision 
to significantly enhance its ability to influence the COCOMs. 
Although USAID's Senior Foreign Service Corps was shrinking 
actually at the time, USAID's leadership recognized the 
importance of creating new senior development advisor 
positions, SDAs, in each of the COCOMs. These were envisioned 
as officers who could address the nexus between defense and 
development required in addressing a range of issues.
    Around this same time, the Agency recognized the importance 
of establishing an Office of Military Affairs. As this Military 
Affairs office began to staff up in 2006, one of its primary 
responsibilities was strengthening coordination between the 
COCOMs, USAID regional bureaus, and our missions around the 
world. As a result of these advances in recent years to 
strengthen civ-mil coordination, we are better placed to share 
lessons learned and leverage interagency expertise to further 
national security and improve development outcomes.
    DOD's SOUTHCOM and Africa Command are two excellent 
examples of this partnership. I had the opportunity to witness 
firsthand the important role of SOUTHCOM in promoting 
interagency coordination while serving as the USAID Mission 
Director in Colombia. The Embassy's integrated approach was 
fully supported by SOUTHCOM as we collectively worked across 
the interagency to tackle Colombia's illicit narcotics 
production and trafficking.
    The interagency coordination was supplemented by a close 
working relationship within the entire interagency, but, most 
importantly, with our Colombian counterparts on a clear-hold-
build strategy, to regain territory controlled by the 
Revolutionary Armed Forces of Colombia, often known as the 
FARC.
    The statistics are impressive and it really demonstrates 
the impact of an integrated approach supported at all levels. 
Since 2002, kidnappings, homicides, and terrorist attacks 
decreased by 90, 45, and 71 percent respectively nationwide, 
and development indicators significantly increased.
    The earthquake that struck Haiti on January 12th is another 
example of critical importance of interagency collaboration. 
The response effort represents the most broadly and deeply 
integrated humanitarian operation abroad in U.S. history. The 
Haiti earthquake response was built upon years of investing in 
developing existing processes for USAID-DOD collaboration. As 
the USAID administrator's coordinator of the Haiti disaster 
response effort, I can personally attest to the intense 
coordination that took place between SOUTHCOM and USAID in 
response to this earthquake, and I am happy to describe that in 
much more detail.
    AFRICOM provides another example where strong interagency 
partnership from its inception has advanced U.S. national 
security interests. We support and emphasize this crucial core 
function of AFRICOM in the interagency. At the same time, there 
are many other areas where USAID and AFRICOM work closely and 
effectively together.
    Perhaps the best example of USAID's affect upon the 
command, and I can talk extensively about how we were involved 
in the AFRICOM development, but there is one example I would 
like to share with you today that I think really does capture 
the essence of our relationship.
    We had a representative in AFRICOM's humanitarian 
assistance office who helped reshape the provision of AFRICOM's 
assistance to be more effective. Her efforts were actually 
recognized when she won an award from the American Foreign 
Service Association for her contributions to dialog about the 
Defense Department programs in the area of women's health; 
therefore, she was able to help them strategically use their 
expertise in AFRICOM in a way that better served our overall 
national security interest.
    While USAID has had to adopt new approaches to deal with 
stabilization activities, DOD has also begun to adopt many key 
approaches used by USAID. For example, the concepts of 
sustainability and capacity building are becoming central 
themes of DOD's efforts worldwide.
    We still have a lot of work to do in this area but, in 
short, we all need to work together, as no one agency has the 
tools, resources, or approaches to deal alone with the emerging 
threats.
    In conclusion, we have made tremendous progress and we have 
learned valuable lessons over these recent years, where I think 
each of our institutions have built up these capabilities, and 
this only reaffirms our commitment to continue interagency 
collaboration.
    Thank you.
    [The prepared statement of Ms. Reichle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you. Thank you all for your testimony.
    We have sort of a basic premise. It seems that everybody is 
pretty much in agreement that an integrated approach is a good 
thing, and we have talked about that in the past, but I keep 
going back to what troubles me. Maybe I am the only one it 
troubles, but I really would appreciate your efforts to help me 
work through it.
    If we are going to have an integrated approach, why is the 
United States leading with the Department of Defense in charge 
as opposed to leading with diplomacy, having the Department of 
State or somebody else leading this integrated effort so that 
it then could bring in whatever agency might be appropriate, 
USAID, the military, Customs, whatever, and then put together 
their particular team.
    I mean, you have to establish priorities. You have to have 
leadership that clearly defines the mission, and they will 
change, as Mr. Pendleton says, depending on what country you 
are in, what area you are in, which agencies from the United 
States or the international community might you want to 
involve, what indigenous groups or NGO's.
    Including them all in the planning seems to be a good idea. 
Having constant transparency and sharing of information, 
communication, that all seems to be fine. Willingness to share 
responsibility, sometimes more difficult than others on that, 
but important. And enough personnel that has training and is up 
to the task and is up in numbers to get the job done and align 
all the capacities in complementary ways.
    That is all great, but why is the Department of Defense the 
lead on this in non-contingency operation areas? I understand 
if we are in Afghanistan. I understand if we are in Iraq. But 
when we are going into a region like Africa or South America or 
some place like that where the United States is going out 
there, why are we leading with our fist as opposed with the 
diplomatic area and putting a different group in charge to do 
the same type of interagency planning?
    I will give everybody a shot at that. We will start with 
Mr. Pendleton and work right across the board.
    Mr. Pendleton. I am not sure DOD is in charge literally. I 
think the fact that the Department of Defense swamps other 
agencies sometimes gives that perception. AFRICOM is 2 years 
old, and they already have 4,400 people assigned. Many of those 
are back in Italy and Germany doing planning.
    But even after that we found that a lot of the supporting 
plans, things that would be at the country level, for example, 
are not done. That is where a lot of the coordination needs to 
occur, because all those different organizations have different 
approaches to planning. DOD tends to take a very broad look. 
There is a theater campaign plan in place. But the underlying 
plans are not there, and that is where a lot of that 
coordination has to happen.
    I don't want to compare SOUTHCOM and AFRICOM too much 
directly because they are different. SOUTHCOM has been around a 
lot longer, for one thing. But they have 30 objectives in their 
theater campaign plan, 22 of which are led by agencies other 
than DOD. So you see, I think, a different level of maturity.
    Mr. Tierney. I guess my problem is what is this a military 
theater campaign for? We are not attacking Africa. We are not 
going in on a military basis to be an empire, or at least that 
is the general perception. But when you put Department of 
Defense in charge of putting together this interagency or 
whole-of-government team, certainly the appearance is you see 
this as some sort of a military campaign and everybody else 
just fits in somewhere along the line.
    Dr. Schear, what is your perspective on that?
    Dr. Schear. Sir, I take your point that certainly in terms 
of both public perceptions and the centrality of the service 
delivery platform, if you will, that the fact that it is a DOD-
led organization raises genuine questions. And that does cause 
us to be very careful, especially in what I would say are 
economy of force theaters, to ensure that everything we say and 
do supports the notion that we are a supporting, not a leading, 
organization in there.
    Sir, quite frankly the problem we face is an overwhelming 
desire to be prepared for all contingencies. I will give you 
exactly the example that confronts us today in Haiti. Up to 
January 11th, SOUTHCOM, which is about 800 headquarters staff, 
had very few boots on the ground anywhere, operational boots on 
the ground, anywhere in its area of responsibility. Three to 4 
weeks later it is up to 26,000 deployed in Haiti. That was a 
major stress test, to put it mildly, for the command. And the 
command, as GAO has reported, really had to make some major 
adjustments to cover shortfalls.
    Now, the policy prescription I draw from that is that we 
should not have the 600-pound gorilla, if you will, man-powered 
up for all contingencies on the high end. The problem we face, 
though, is the balance between the steady state daily 
engagement in an economy of force theater versus these big 
plus-ups, and it is organizationally and, in terms of mission 
performance--people expect us to succeed at our mission--it is 
a big challenge to balance that. But that is not to gainsay 
your point.
    Mr. Tierney. I think that begs the question. I understand 
what you are saying. It begs the basic question, sure, but if 
somebody else were in charge they could still call on the 
military to scale itself up and address that issue as part of 
an overall plan and a contingency plan for a larger operation 
and for going into a particular situation. But I hear what you 
are saying. I just think that it begs the question of why are 
we leading with our fist, why are we putting that in.
    Whatever you say about wanting to make it look like you are 
supporting and not leading, you can't sell that to most people 
who see the way that we have structured this, the way it has 
been set up, and the way that we are operating it, so it just 
gets there.
    I am going to come back to Mr. Countryman and Ms. Reichle, 
just in fairness to my colleagues who are here. I will give 
them their 5 minutes and we will do another cycle on that if I 
could.
    Mr. Quigley, you are recognized for 5 minutes.
    Mr. Quigley. Thank you, Mr. Chairman.
    I am reading the analysis of the GAO report released today. 
I am struck with this: AFRICOM's Army component stated that the 
greatest challenge to creating positive conditions in Africa is 
ensuring that U.S. Defense efforts remain synchronized. If 
plans are not coordinated, their efforts could have unintended 
consequences such as the potential for Africans to perceive the 
U.S. military as trying to influence public opinion in a region 
sensitive to the military's presence.
    I am curious if you see evidence of this so far, and, 
without taking it to an extreme, I am hoping this isn't the 
weaker distant cousin of what one professor calls the 
accidental gorilla syndrome, that our presence creates problems 
that overwhelm and create greater problems than we tried to 
solve.
    Mr. Pendleton. I think that points to two things. One is 
the lack of the supporting plans for the components. If you get 
below the Africa Command, each of the services, the Special 
Operations Command, have their own headquarters. There is also 
a joint task force in Djibouti. So the first thing DOD needs to 
do is make sure they know what each other is doing.
    Then there is the question of, in some of these very 
complicated, potentially controversial activities, like there 
is a Web site that tries to provide objective information, news 
information. People are sensitive to that, and that requires 
very, very careful coordination, then, outside the Department. 
So it is a multi-layered problem.
    Our report talks about the need to fill in that planning, 
but there are a couple of places where it can, I think, go 
wrong.
    Dr. Schear. Sir, I think I would just add to the point that 
the service that is provided does carry with it an obligation 
to make sure that we are appropriately postured in a supporting 
role. Now, the perceptions may vary considerably from country 
to country. If we, DOD, do something that has an unintended 
consequence, that is not sustainable--if we build a school 
which has no teachers in it 6 months or a year from now, or a 
road that leads to nowhere, or, you know, we drill a well that 
costs five times what it would cost a civilian relief 
provider--we are not doing our job. And we would take, I think, 
absolute guidance from the experts who know when and how we 
should perform these activities.
    Now, in Capital X or Capital Y my guess is the U.S. Embassy 
country team is somewhat more visible in terms of U.S. presence 
than a combatant commander, say, in Miami or in Honolulu or 
Stuttgart, but I grant that, in terms of the operational level 
between the strategic Washington level and the tactical country 
level, there is this operational level which DOD inhabits. We 
try very much to inhabit it with other partners, and it is 
driven by operational concerns: the phone that rings in the 
morning and we have to go do a must-do mission.
    Sorry for rambling, sir.
    Mr. Countryman. Yes, sir. A couple comments. Perhaps having 
to work for the first time with the military, I like to tell 
them that there are two fantastic assets that working with the 
military can bring to an American embassy. First, that our 
military is creative and action oriented, and, second, that it 
can, depending upon the purpose, bring forward far greater 
resources of money and personnel than other civilian agencies 
are capable of doing. Neither of those is an unmixed blessing.
    The energy and the creativeness is usually welcome. It has 
to be tempered with the realistic assessment of whether, to 
take the example of AFRICOM, whether this particular creative 
idea that has some people and some resources behind it is 
appropriate in this particular country environment. There, the 
challenge is always to make sure that communication is flowing 
adequately between the Ambassador and his or her country team 
and the people in AFRICOM and Stuttgart or in a component 
command of AFRICOM who are working on that creative idea.
    The vast majority of cases it works well, communication is 
flowing. You can find a couple of cases, and I believe they are 
mentioned in the GAO report, where that coordination was not 
sufficient in advance. I think we are getting to resolve those 
issues.
    If I could, I will follow that thought with a response to 
the chairman's question that I don't believe all the action is 
in the regional combatant commands. Again, having led a large 
embassy overseas, we like to say and we truly believed that an 
embassy-country team is the place where the interagency process 
really works, because we are small enough, we know each other, 
we trust each other, we can integrate the roles of the 
different agencies represented in an embassy into an effective 
interagency process. And country by country we have well-
integrated and well-understood plans that the Ambassador leads 
on behalf of the U.S. Government.
    Now, that is a different level of planning than you see at 
CENTCOM or AFRICOM. It is a different level of planning than 
you see in State. But, in fact, if we are doing our job well, 
the CENTCOM regional plan should represent well the insights of 
the planning that is done country team by country team across 
the continent. That same should be true of the bureau by bureau 
regional plans produced in State as a summation of the country 
planning process that is done in each embassy.
    So if you focus on a continent at a time, it is very easy 
to see or to say that AFRICOM has the lead rather than civilian 
agencies. If you look one country at a time, I think you might 
not have the same perception.
    Mr. Tierney. Thank you for your comments. I am going to 
move on to Ms. Chu. But I am telling you, that was, and I don't 
mean this in a disrespectful way, a lot of bureaucratic talk, 
but it is what it is. It can't be several different things and 
everybody can't be doing the same thing, but you are telling us 
it is happening differently, but I will get back to it when it 
is my turn.
    Mr. Quigley. Mr. Chairman, I agree. I just want to say, and 
I thank you for your indulgence, it is what the public there 
perceives it to be.
    Mr. Tierney. OK.
    Ms. Chu, you are recognized for 5 minutes.
    Ms. Chu. Thank you, Mr. Chairman.
    Mr. Pendleton, you say in your report that the Haiti 
response revealed weaknesses in SOUTHCOM's organizational 
structure, and you give a couple of examples, but could you 
talk in more detail about that? And especially in how it 
affected the victims of Haiti.
    Mr. Pendleton. You know, we didn't find any evidence that 
it actually affected the victims. We thought it was 
instructive, though, because in 2008 the transformation of 
SOUTHCOM's headquarters away from the military's J-structure 
where they have J-1 personnel, J-2 intelligence, and the like, 
was one of DOD's top transformation priorities. It was viewed 
as this was the way of the future. We were going to put 
interagency personnel in critical jobs and kind of change the 
way these COCOMs operated.
    When the earthquake happened and the relatively small 
headquarters in Miami there had to go to 24-hour-day, 7-day-a-
week operations, not only did they not have the people to man 
watch; they didn't have enough specialists in things like 
logistics and other things, and so they had to literally 
overnight revert back to a J structure because they brought 500 
people in to help and they managed to make it work, but we 
thought it important.
    Now, I also appreciate one of the comments made earlier. 
That doesn't necessarily mean they need to come back with a 
1,500-person staff just in case something like that happens. 
What they need to do is look at the kinds of things they do 
day-to-day and then have a plan to augment the staff in case an 
emergency happens. But we found no evidence that it had an 
impact on the ground.
    Ms. Chu. Ms. Reichle.
    Ms. Reichle. Thank you very much. I just wanted to make a 
couple comments, because I was the USAID Administrator's point 
person on the Haiti relief effort, and it was very interesting 
and really useful to see that the GAO found it had no 
implication, because for our people, who were the lead agency, 
with the supporting agency being DOD or other interagency 
players, whether they were in an interagency sort of function 
within SOUTHCOM or they switched to a J code, as we actually 
ramped up in SOUTHCOM it had absolutely no impact.
    I think, getting to your question about what was the impact 
most importantly on the ground and the people we served, I 
think we can be very confident that did not have an impact on 
the people who were clearly in desperate need.
    I just wanted to take an opportunity to address a couple of 
the questions that were mentioned earlier by the chairman, as 
well as Congressman Quigley.
    Mr. Tierney. I don't want to interrupt you, but I will. I 
am going to give you an opportunity to do that, so if Ms. Chu 
has a different direction she wants to go in, I want to give 
her the opportunity to utilize her 5 minutes and then have you 
answer my question on different time.
    Ms. Reichle. OK.
    Ms. Chu. Yes. I wanted to followup on that, because you are 
saying that there was somewhat of a delay, though, because the 
personnel wasn't there to perform those particular functions, 
so was there an issue in that could have affected the victims?
    Mr. Pendleton. Yes. I was involved when we did the work 
with the military response after Katrina, so I had some 
experience in hearing about this, and I actually went down 
myself to Miami to hear about this.
    They acted fairly decisively. They were only a few days in 
when they realized that they just didn't have the people, and 
it was a fairly, I think, bold stroke to go back, even though 
they knew people like folks from the GAO might bring it up in a 
report or something, because it had been changed to great 
fanfare. But I think there was a realization that there was a 
mission to do and they needed to shift.
    Also, it is important to note they brought 500 people in, 
people from NORTHCOM and other places. Unlike Katrina, where 
there was some delay where things were sorted out, we did not 
find that in this case, ma'am.
    Ms. Chu. That is comforting to know, then.
    Mr. Pendleton. Yes.
    Ms. Chu. Also, in your testimony you outline three key 
practices for successful interagency collaboration: developing 
and implementing over-arching strategies for addressing 
national security issues; creating mechanisms to facilitate 
coordination among agencies; and training personnel with 
interagency expertise. But the list doesn't include sharing 
information. Do you believe information sharing is important?
    Mr. Pendleton. Absolutely. Back in September we did a 
broader report, which I would be happy to provide to you, that 
looked across the government, dozens of our reports, and we 
bring up information sharing in that. That was mainly for 
brevity. Absolutely, information sharing is important. We were 
just picking the areas that we thought were most critical here.
    Information sharing in terms of planning I think is very, 
very important so that the organizations know what each other 
is planning. You don't want to get in a situation where you are 
just de-conflicting or people are showing up and you are not 
quite sure why, or having to train people in the local culture, 
or whatever. That comes back to planning, not only sharing 
information but planning, as well.
    Ms. Chu. Thank you. I yield back.
    Mr. Tierney. Thank you, Ms. Chu.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    What is the budget for SOUTHCOM?
    Dr. Schear. We will have to take that and get back to you, 
sir.
    Mr. Welch. Any idea? Round numbers?
    Dr. Schear. Not immediately. No.
    Mr. Welch. What is the budget for AFRICOM?
    Mr. Pendleton. We know that. About 300 million.
    Mr. Welch. You said 300 million?
    Mr. Pendleton. About 300 million. That does not include the 
joint task force in Djibouti.
    Mr. Welch. And how much is it for AFRICOM?
    Mr. Pendleton. About 300 million.
    Mr. Welch. SOUTHCOM and AFRICOM are about the same?
    Mr. Pendleton. SOUTHCOM is a little smaller.
    Mr. Welch. So for 300 million we have about 800 personnel 
deployed in AFRICOM?
    Mr. Pendleton. They are at the headquarters in Stuttgart 
and with some back in an intel center in the U.K.
    Mr. Welch. And what discussion and consideration do you 
have about the presence of military-related force that is 
doing, in some cases, humanitarian work, and how that affects 
the host country where the work is being done, in terms of 
their perception of what our agenda is? Mr. Pendleton, we will 
start with you.
    Mr. Pendleton. We did a report for the subcommittee back in 
April talking about the efforts of the Combined Joint Task 
Force Horn of Africa down in Djibouti, and that did provide 
some examples of mis-steps.
    Mr. Welch. Like what?
    Mr. Pendleton. For example, there were plans to have a 
medical event, but the local people were nomadic and there 
wasn't enough notice given. There were veterinary events that 
would have required driving cattle and other livestock a long 
distance. I mean, there are successes, too. I don't want that 
to drive everything.
    Mr. Welch. But what would you say is our mission in 
Djibouti, the AFRICOM mission? What is it that we will seek to 
get done there?
    Mr. Pendleton. Countering violent extremism. It started as 
a counter-terrorism task force.
    Mr. Welch. And what are the concrete things we do with 
AFRICOM?
    Mr. Pendleton. It is about 60 percent civil affairs 
activities now: building schools, drilling wells, that kind of 
thing. In our report in April, we recommended to the Department 
that there be some serious consideration given to the mission 
of the Task Force in Djibouti.
    Mr. Welch. And your recommendation would be that if there 
is consideration given to the mission, what should be the 
conclusion, based on your experience?
    Mr. Pendleton. I would leave it to the Department to decide 
how they want to use their Joint Task Force, but that is a non-
doctrinal type of organization--sorry to fall into jargon 
there, but you don't typically have a joint task force that 
lasts for a long time.
    I would like to allow other folks to talk about this as 
well, if you don't mind, but when you are doing 60 percent 
civil affairs and that is being led by the military, that is, I 
think, fraught with peril, honestly. And it is not inexpensive. 
It is $230 million or so to keep the base open there, and about 
$80 million a year for the Task Force, itself. So we just 
pressed the Department to think about, along with State and 
others, what is the best role for that Task Force.
    Mr. Welch. OK. Dr. Schear? Thank you.
    Dr. Schear. Thank you, sir. JTF HOA, as you know, is quite 
closely connected in terms of both its presence, its mission, 
its ability to promote access to this region. It is very 
closely connected to our campaign against violent extremism in 
that part of Africa. For a definitive read, I think--and I 
would defer to colleagues at the embassies within the countries 
that are covered under JTF HOA's area of responsibility, as 
well as to our counter-terrorism colleagues. I think we would 
have to bring their perspectives to bear into this very complex 
discussion.
    Humanitarian and civic assistance projects are a means to 
an end, and I will plead guilty that we are very instrumental 
in our approach. We have to meet sustainability and 
effectiveness criteria. If we are throwing money----
    Mr. Welch. With all due respect, I actually don't 
understand what you just said. If what we are talking about is 
humanitarian assistance that is going to be, let's say, a 
school----
    Dr. Schear. Yes.
    Mr. Welch [continuing]. If you are living in that village 
where the school is to be built, do you have some questions 
when the people who are building the school show up in military 
uniforms, armed, versus Peace Corps style volunteers who show 
up unarmed and with some equipment?
    Dr. Schear. There may be questions. I think that would 
depend on----
    Mr. Welch. There may be?
    Dr. Schear. It will depend on the civil military socio-
culture within the country affected whether a local person 
views that as abnormal or not, sir. I am not----
    Mr. Welch. You don't have a conclusion about that?
    Dr. Schear. I don't have a definitive conclusion. I think 
it would depend very much on civil military relations within 
the affected country.
    Mr. Welch. OK. Ms. Reichle, how about you?
    Ms. Reichle. Thank you. I think in these environments it is 
really critical that we work together to make sure that our 
presence is actually much more in the background, because it is 
about developing the local capacity.
    Mr. Welch. That would suggest a light footprint.
    Ms. Reichle. Exactly. And I think that is one of the things 
that we have tried to do in our integrated approach. In my 
testimony I try to highlight, after my 4 years in Colombia, 
very much as we were working across the board of DOD, 
Department of State, USAID, and other interagency players, that 
we were in the background, and the most important thing is that 
the host country, as well as the change agents within the local 
society, were out in front. And so you are absolutely correct: 
it does make a difference whether or not we show up and whether 
we are in uniforms or whether we show up at all.
    Mr. Welch. Yes. I yield back. Thank you.
    Mr. Tierney. Thank you.
    Mr. Welch is color blind. He has a tendency not to see the 
red.
    What I want to do is I want to go around again. Stick 
around. I am going to go around again. We are going to get as 
far into another round as we can, and then we will break so you 
don't have to come back afterwards.
    I am sort of stunned at the willingness of the Department 
of State and USAID and all those people to just let DOD take 
away what always used to be civilian capacity on here. It looks 
like we have hollowed out State, we have hollowed out USAID, 
and we built up the Department of Defense.
    So if you go into a country and you tell them that you want 
to help them with the development and you want to help them 
with the rule of law, their capacity for governance, civil 
society, all these things that we think we want, that used to 
be our way of diplomatically telling a country that we want to 
get in there and help them.
    Now we go in and say, we are here to help, here is our 
military. These guys with guns are coming in because really it 
is a counter-terrorism operation. We see this whole thing as we 
are in there for our own self-interest to protect us against 
the fact that maybe terror will establish a root here or 
something. It is a whole different message. And who shows up 
wearing what uniform should matter to us.
    One thing is the culture of the places where you are going, 
but it should matter to us, our culture. Our culture is not to 
be a military organization that goes out there and starts 
jumping into all these countries and saying we are going to do 
this military operation because it is us we are worried about. 
There is a place for that, but I don't think it is in the lead 
of going in there. That is the fundamental question I keep 
trying to get back to.
    I know, Dr. Schear, you say you could make it work. Of 
course you could make it work. The question is: should we make 
that work or should we make the proper model work so that if 
your goal is to have a whole government thing put the right 
people in charge of it, and whatever the role for the military 
is, it is. You probably wouldn't need a base the size of the 
one you have in Germany and a base the size of the one you have 
in Djibouti. How many Department of Defense military and 
civilian employees in AFRICOM? And what is their ratio compared 
to all of the employees?
    Dr. Schear. I believe, sir, there are about 1,500 in the 
AFRICOM command. I don't know how the sizing was done, perhaps 
related to over 50 countries in the area of responsibility, as 
distinct from SOUTHCOM, which is about 30. But I can't give you 
a definitive answer.
    Mr. Tierney. Well, we have had that at previous hearings, 
overwhelming number of Department of Defense personnel versus 
personnel from any place else. Overwhelming. And that is why 
they are out there jumping around into everything and why they 
show up to do all the civil society stuff and the building, the 
development, the rule of law. Wrong team, wrong place, wrong 
approach.
    We have to decide what we should be talking about here. We 
will probably have other hearings about it. Why aren't we 
building up the capacity for the people to go in there and do 
all those things non-militarily so that you have the military 
really playing the supporting role that, Doctor, you are saying 
you want appear that you are doing that, but, in fact, you are 
not doing that because, by attrition, the Department of Defense 
has had to stand up and do all of this because we, Congress, 
the White House, other policymakers and like that have hollowed 
out every other competing interest that could be doing it.
    And then it is just self-fulfilling prophecy at that. Keep 
building up the one that is taking the action and narrowing 
down the ones that aren't. So that is, I guess, the fundamental 
point I was trying to make at the beginning, not that you are 
doing something nefarious or you are a bad person for doing it 
or the Department of Defense is bad. They are filling a gap, 
and they just keep reinforcing that filling instead of somebody 
saying, Wait a minute, is that what we want to do?
    I will tell you from my travels, my involvement with other 
government people in different countries, they think we are 
trying to just go over there with the military and put a 
foothold in there and it is all about us and we don't give a 
Fig Newton for any of their concerns or any of their needs, and 
that is why we get involved in so many of these conflicts in 
such a bad way that things just fall apart.
    So that is all I really want to say about that.
    Your testimony, both written and here today, has been 
helpful for me to try to coalesce those ideas, but I do want 
your ideas, if you would, at some point. I am perfectly willing 
to take them afterwards in writing. How are we going to buildup 
that capacity, non-military capacity, to get the things done 
that we need to do to reach out to these countries to address 
the needs that they have because we want to help them, not 
because we want to set up yet another counter-terrorism 
foundation?
    And then, based on that, how do we restructure AFRICOM or 
SOUTHCOM, not that we want to do away with AFRICOM or SOUTHCOM. 
We want to lead them to their supporting role. So what would 
replace them in the lead role on this? If you would all do 
that, I would be extremely appreciative.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Ms. Reichle, do you want to comment now on 
that?
    Ms. Reichle. If I may start. Thank you, Mr. Chairman, 
because I think you are raising a really critical issue that we 
have dealt with at the field level at lots of different levels, 
and it is something that our agency has been intensely focused 
on.
    Given that the USAID is smaller than the Marine Corps band, 
I think a lot of what you are illustrating here is that it is 
perception. Even though USAID was the lead agency on the 
disaster relief effort for Haiti, obviously we had many more 
boots on the ground with our colleagues in DOD, which we very 
much appreciated, in a supporting function, but whether it was 
the media or the press you would have thought that DOD----
    Mr. Tierney. But you were the lead agency by designation of 
SOUTHCOM?
    Ms. Reichle. No. We were the lead agency because under the 
Foreign Assistance Act of 1961 that authorization is delegated 
to the President. The President, since 1961, has always made 
USAID the lead----
    Mr. Tierney. Then we have a real perception issue.
    Ms. Reichle. Sorry?
    Mr. Tierney. Then we have a real serious perception issue 
here.
    Ms. Reichle. Absolutely. We have a perception issue, as 
well as we have a resource issue. While USAID, and with the 
support of Congress, has been able to staff up additional 500 
Foreign Service Officers through our development leadership 
initiative over the last several years, it is, frankly, not 
enough, obviously.
    Mr. Tierney. Not even close.
    Ms. Reichle. And in order for us to really play a lead 
role, as you are defining, as we are defining, as the President 
is defining that USAID is the premier development agency in the 
world, that requires resources.
    Mr. Tierney. Used to be. Used to be and needs to get there 
again.
    I will leave you with this thought on that, too. I would 
like to know, subsequently, how many contractors are involved 
in AFRICOM and SOUTHCOM and what are they doing and what are 
their pay schedules relative to that of the people that are on 
our team, please.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Mr. Welch, do you have further questions?
    Mr. Welch. No.
    Mr. Tierney. You don't? I cut you off and you don't have 
questions? Thank you for your indulgence on that.
    Are we leaving anything unasked that you really believe we 
ought to have for information? I will give each of you an 
opportunity to do that.
    Mr. Countryman.
    Mr. Countryman. Thank you, Mr. Chairman, for the 
opportunity to make just a couple comments on the last few 
excellent questions.
    First, in terms of ceding to DOD State responsibilities, it 
is not in my nature and it is, believe me, not in the nature of 
the Department of State to do so. Dr. Schear's office and I are 
engaged weekly in a robust dialog about the proper division of 
security assistance authorities and processes between State and 
Defense. The difference is that a few years ago it was not 
robust, it was a nasty, mean-spirited conversation. Today it is 
a respectful and robust conversation. And we don't cede 
anything.
    The second point I would like to make is that we have 
attempted to outline how we believe interagency process needs 
to work at three levels: at the policy level in Washington, and 
the characterization of that Dr. Schear made in his written 
statement I subscribe to fully; at the regional level, which 
involves not only the very high visibility of AFRICOM but the 
very low visibility regional bureaus of both State and AID, and 
there is more consonance among the regional strategies of those 
three than readily meets the eye because one of them is more 
visible in terms of resources and in terms of a public affairs 
mission that the other two agencies can't match.
    And finally, at the country level where you can find 
examples of coordination among the interagency at the country 
level led by the Ambassador to be less than perfect, but you 
will find many more where it is working well and it is fully 
consonant with the policy direction at the national level and 
at the regional level.
    Finally, if GAO did not go into the question of adequacy of 
resources for various agencies, I am reluctant to do so, as 
well. We are, however, in a situation where we need to do 
whole-of-government planning on national security strategy, and 
security, as we all agree, is much broader than military. We 
have to have a national security strategy combined among many 
different departments, not only the three represented here.
    We don't have a national security budget. We have separate 
agency budgets. Rather than fight that particular windmill of 
changing the entire way that budgets are done by the 
administration and the Congress, which are deeply rooted in 
history, I am a little more realistic, and I think all of us 
have to be realistic.
    We will do our work within the parameters that are given 
us, and I appreciate the opportunity only to touch on this 
issue. Another day, another time, and a better expert than me. 
We would look very much forward to the opportunity to talk 
about the adequacy of resources and the integration across 
agencies of our national security goals in a budget framework.
    Thank you so much.
    Mr. Tierney. Thank you. Well, we do have to have that 
discussion about the adequacy of resources, and we have had 
several discussions in hearings here moving in that direction.
    I will just tell you, I will feel a lot more comfortable 
and believe it more firmly when AFRICOM isn't the one that is 
doing all this work with the military persons at the top and 
your State people as sort of the subordinate officers.
    When you flip that around, then I will feel more 
comfortable and think we are going about it the right way. That 
is what I hear all the time. You may disagree, but security is 
one aspect and interest of ours, but there is a lot of security 
that comes from having countries be firm and stable and 
developed and on their own. It isn't always about we have to 
get an outpost some place to worry about counter-terrorism or 
something.
    That is the message we are sending: that it is all driven 
by our national security interests as opposed to the health and 
welfare and strength and stability of other countries who then 
maybe we wouldn't have to worry about something happening on 
that. If that is the case, then a little more focus on what you 
are doing for them as opposed to the military aspect of it 
would help.
    I know that you are all somewhat comfortable, I guess, with 
running around under the military leadership on that or 
whatever. I am just not sure that it is healthy for us on that.
    Anybody else want to comment? Dr. Schear.
    Dr. Schear. Sir, I would just emphasize that in the 
situations you are talking about our Embassy Chief of Mission 
has an absolute say on what goes on. So, again, in terms of 
lead and supporting roles, I grant there is a visibility issue, 
sir, and in terms of what I draw from your remarks as a 
prescription, which is more resources for State and AID, I 
fully, fully concur with that.
    Mr. Tierney. I suspect you would.
    Dr. Schear. I would also ask that thought be given to the 
difference between and among combatant commands in places like 
the UCOM AOR, PACOM, and CENTCOM. We face different 
environments and a need, in particular, for access. In fact, I 
would point to Djibouti as a case within AFRICOM, but that is a 
critical important access hub for us for Central Command, and 
so we have actually----
    Mr. Tierney. A military base.
    Dr. Schear. Yes.
    Mr. Tierney. Sure. I think we are not making the 
distinction. The military has to do what you have to do for 
your military purposes on that. That may not necessarily be 
true that is as significant for the whole-of-government 
approach on that. It may or may not be.
    But nobody is saying here that there is not a military 
perspective to this; it is a question--and you can't raise it--
you want to be in a supportive role, be in a supportive role. 
You say that the Ambassador participates, great, but it should 
be the military that is participating in the overall planning, 
as opposed to somebody else participating. But I think we have 
beat that horse pretty much to death by now.
    Thank you. I appreciate all of your testimony and all of 
the information that you provide for us, as you are so willing 
to do.
    With unanimous consent, there being no objection, Mr. 
Flake's opening statement will be entered onto the record in 
its entirety.
    [The prepared statement of Hon. Jeff Flake follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Again, thank you all very, very much. I 
appreciate your being here.
    This meeting is adjourned.
    [Whereupon, at 3:13 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
